         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report




       Information Security Series:
       Security Practices

       Integrated Contract Management
       System

       Report No. 2006-P-00010


       January 31, 2006
Report Contributors: 	    Rudolph M. Brevard
                          Charles Dade
                          Neven Morcos
                          Jefferson Gilkeson
                          Scott Sammons




Abbreviations

ASSERT       Automated Security Self-Evaluation and Remediation Tracking
C&A          Certification and Accreditation
EPA          Environmental Protection Agency
FISMA        Federal Information Security Management Act
ICMS         Integrated Contract Management System
OARM         Office of Administration and Resources Management
OIG          Office of Inspector General
OMB          Office of Management and Budget
POA&M        Plan of Action and Milestone
RTP          Research Triangle Park
                       U.S. Environmental Protection Agency                                                  2006-P-00010

                       Office of Inspector General                                                        January 31, 2006





                       At a Glance 

                                                                            Catalyst for Improving the Environment

Why We Did This Review              Information Security Series: Security Practices
As part of our annual audit of
                                    Integrated Contract Management System
the Environmental Protection
Agency’s (EPA’s) compliance         What We Found
with the Federal Information
Security Management Act             OARM should place greater emphasis on key information system security practices
(FISMA), we reviewed the            to comply with Federal and Agency information security requirements.
security practices for a sample     Specifically, we found that OARM’s ICMS, a major application, was operating
of key Agency information           without (1) current certification and accreditation, (2) contingency plans or testing
systems, including the Office       of the plans, and (3) a process to monitor servers for known security vulnerabilities.
of Administration and               OARM officials could have discovered these noted deficiencies had they
Resources Management’s              implemented procedures to ensure that Federal and Agency information security
(OARM’s) Integrated Contract        policies and guidelines were followed. As a result, ICMS had security
Management System (ICMS).           vulnerabilities, which, if exploited, could have had a serious adverse effect on
                                    operations, assets, and individuals.
Background
                                    What We Recommend
FISMA requires agencies to
develop policies and                We recommend that the OARM Information Security Officer:
procedures commensurate with
the risk and magnitude of harm      ¾	 Develop a contingency plan for ICMS and implement a process to ensure the
resulting from the malicious or        plan is tested at least annually,
unintentional damage to the         ¾	 Implement processes to ensure ICMS production servers are periodically

Agency’s information assets.           monitored for known vulnerabilities, 

ICMS is the information
system EPA uses to manage its       ¾	 Develop a Plan of Action and Milestone in the Agency’s security weakness

contracts.                             tracking system (ASSERT database) for all noted deficiencies, and 

                                    ¾	 Develop and implement a plan to re-evaluate system security oversight 

For further information, contact       processes to ensure the above recommendations are uniformly applied to all 

our Office of Congressional and
Public Liaison at (202) 566-2391.
                                       general support systems and major applications within OARM. 


To view the full report,            OARM agreed with the report’s findings and has indicated that the office has
click on the following link:        updated key security documents and started to address several of the identified
www.epa.gov/oig/reports/2006/       issues. OARM maintains that the office has processes to ensure that ICMS servers
20060131-2006-P-00010.pdf
                                    it controls are monitored for known vulnerabilities. The office indicated many of
                                    the Office of Inspector General’s concerns would be addressed when OARM
                                    finalizes its server consolidation project.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                        OFFICE OF 

                                                                                   INSPECTOR GENERAL




                                         January 31, 2006

MEMORANDUM

SUBJECT:               Information Security Series: Security Practices
                       Integrated Contract Management System
                       Report No. 2006-P-00010

FROM:                  Rudolph M. Brevard, Director /s/
                       Information Technology Audits

TO:                    Luis A. Luna
                       Assistant Administrator for
                       Administration and Resources Management

This is our final report on the information security controls audit of the Office of Administration
and Resources Management’s Integrated Contract Management System conducted by the Office
of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA). This audit
report contains findings that describe problems the OIG has identified and corrective actions the
OIG recommends. This audit report represents the opinion of the OIG, and the findings in this
audit report do not necessarily represent the final EPA position. EPA managers, in accordance
with established EPA audit resolution procedures, will make final determinations on matters in
this audit report.

Action Required

The Office of Administration and Resources Management does not have to provide a response to
this report. The Agency’s response to the draft report contained an adequate corrective action
plan with milestone dates to implement the plan. Accordingly, we are closing this report on
issuance. We have no objection to further release of this report to the public. For your
convenience, this report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at
(202) 566-0893.
                                       Table of Contents 

At a Glance

Purpose of Audit…………………………………………………………………………………...                                                                                        1

Background…………………………………………………………………………………………                                                                                              1

Scope and Methodology .....................................................................................................               2

ICMS’ Compliance with Federal and Agency Security Requirements ...........................                                                3

     Certification and Accreditation ………………….. .............................................................                              4
     Contingency Planning ………………………………………………………………………….                                                                                   4
     System Monitoring for Known Vulnerabilities...................................................................                       5

Recommendations...............................................................................................................            5

Agency Comments and OIG Evaluation ............................................................................                           6



Appendices
A     Agency Response to Draft Report .............................................................................                       7    


B     Distribution ...................................................................................................................   10

Purpose of Audit
          Our objective was to determine whether the Office of Administration and
          Resources Management’s (OARM’s) Integrated Contract Management System
          (ICMS) complied with Federal and Agency information system security
          requirements. ICMS automates the Environmental Protection Agency’s (EPA’s)
          Federal acquisition and contract management processes. It generates solicitations,
          contract documents, purchase orders, contract modifications, and tasking
          documents.

Background
          We conducted this audit pursuant to Title III of the E-Government Act of 2002,
          commonly referred to as the Federal Information Security Management Act
          (FISMA). FISMA requires the Agency to develop policies and procedures
          commensurate with the risk and magnitude of harm resulting from the malicious
          or unintentional damage to the Agency’s information assets. EPA’s Chief
          Information Officer is responsible for establishing and overseeing an Agency-
          wide program to ensure that the security of its network infrastructure is consistent
          with these requirements. Program offices are responsible for managing the
          implementation of these security requirements within their respective
          organizations.

          Program offices should create a Plan of Action and Milestone (POA&M) when
          they identify security control weaknesses. The POA&M, which documents the
          planned remediation process, is recorded in the Agency’s Automated Security
          Self-Evaluation and Remediation Tracking (ASSERT) tool, which is used to
          centrally track remediation of weaknesses associated with Information
          Technology systems. ASSERT also serves as the Agency’s official record for
          POA&M activity.

          FISMA requires the Inspector General, along with the EPA Administrator, to
          report annually to the Office of Management and Budget (OMB) on the status of
          EPA’s information security program. The OIG provided the results of its review
          to OMB in Report No. 2006-S-00001, Federal Information Security Management
          Act, Fiscal Year 2005 Status of EPA’s Computer Security Program, issued
          October 3, 2005.

          During our annual FISMA review, we selected one major application each from
          five EPA program offices and reviewed the office’s security practices surrounding
          these applications. Our overall review noted instances where EPA could improve
          its security practices and the OIG reported the results to EPA’s Chief Information
          Officer in Report No. 2006-P-00002, EPA Could Improve Its Information Security
          by Strengthening Verification and Validation Processes, issued October 17, 2005.




                                            1

         This audit report is one in a series of reports being issued to the five program
         offices that had an application reviewed. This report addresses findings and
         recommendations related to information security weaknesses identified in
         OARM. In particular, this report summarizes our results regarding how OARM’s
         ICMS complies with Federal and EPA information security policies and
         procedures. This report also includes our evaluation of how OARM
         implemented, tested, and evaluated ICMS controls to ensure continued
         compliance with reviewed Federal and Agency requirements. The Scope and
         Methodology section contains the specific security objectives audited during this
         review.

Scope and Methodology
         We conducted our field work from March 2005 to July 2005. Our primary
         location selected for review was the National Computer Center, Research
         Triangle Park (RTP), North Carolina. However, EPA uses ICMS in multiple
         locations other than RTP and we judgmentally selected two additional sites using
         the application – EPA Headquarters and Region 3.

         We interviewed Agency officials at all locations and contract employees at the
         National Computer Center. We reviewed relevant Federal and Agency
         information security standards. We reviewed application security documentation
         and training records to determine whether they complied with selected standards.
         We reviewed system configuration settings and conducted vulnerability testing of
         servers for known vulnerabilities. We conducted this audit in accordance with
         Government Auditing Standards, issued by the Comptroller General of the United
         States.

         We assessed the adequacy of the following security practices for ICMS:

              •	 Security Certification and Accreditation (C&A) practices: We
                 reviewed ICMS’ C&A package to determine whether the security plan
                 was updated and re-approved at least every 3 years and the application
                 was reauthorized at least every 3 years, as required by OMB Circular
                 A-130 and EPA policy.

              •	 Application contingency plans: We reviewed ICMS’ contingency
                 planning practices to determine whether they complied with
                 requirements outlined in EPA Directive 2195A1 (EPA Information
                 Security Manual), National Institute of Standards and Technology
                 Special Publication 800-34 (Contingency Planning Guide for
                 Information Technology Systems), and EPA Procedures Document
                 (Procedures for Implementing Federal Information Technology Security
                 Guidance and Best Practices).




                                         2

              •	 Security controls: We reviewed two areas of security controls:
                 (1) physical controls, and (2) system vulnerability monitoring. We
                 evaluated a sub-set of physical controls for selected ICMS server rooms
                 at the EPA Headquarters and Region 3 offices. We did not test physical
                 controls at RTP, because this location was undergoing an audit of these
                 practices. The OIG found instances where EPA could improve its
                 physical controls at RTP and reported the results in Report No.
                 2006-P-00005, EPA Could Improve Physical Access and Service
                 Continuity/Contingency Controls for Financial and Mixed-Financial
                 Systems Located at its Research Triangle Park Campus, issued
                 December 14, 2005. We tested OARM’s processes for monitoring the
                 ICMS resources for known vulnerabilities, as required by Agency
                 policy, and conducted vulnerability testing of all ICMS production
                 servers at RTP, EPA Headquarters, and Region 3 offices.

              •	 Annual Training Requirements: We reviewed whether employees
                  with significant security responsibilities satisfied annual training
                  requirements.

ICMS’ Compliance with Federal and Agency Security Requirements

         Although we noted instances where ICMS was compliant with some Federal and
         Agency security requirements, our findings highlighted areas where OARM
         should place more emphasis to improve security practices surrounding ICMS and
         to better comply with established requirements. In particular, our review noted
         that ICMS contained security weaknesses in

              •	 Timely updating and approving key C&A package documents,

              •	 Developing and testing the contingency plan, and

              •	 Monitoring the production servers for known vulnerabilities and
                 mitigating high-risk vulnerabilities.

         An effective security program helps offices coordinate, implement, and manage
         security-related activities and resources throughout the organization. Security
         practices that help ensure the Agency’s network infrastructure is adequately
         protected include (1) preparing and maintaining an updated C&A package which
         documents the understanding and testing of implemented security controls
         necessary to operate an application, (2) documenting and testing the contingency
         plan to ensure the organization can recover from a disruption in service, and (3)
         monitoring servers for security vulnerabilities and verifying configuration settings
         to minimize exploitation from known threats.

         By not providing emphasis in these areas, OARM places the integrity and
         availability of ICMS at greater risk. For example, our vulnerability test results

                                           3

identified where ICMS servers contained weaknesses that would allow an intruder
to (1) shut down the server and prevent legitimate user access to the system, or
(2) modify confidential information in the ICMS database on the servers.
Exploiting one of these vulnerabilities could result in reduced integrity of the data
used by all EPA contracting offices for contract processing and degrade ICMS’
availability, thereby hindering the contracting officers’ ability to use the
application to manage contractor tasking, allocation of funds, and contractor
efforts. Further, due to the distributed nature of ICMS and the shared
responsibility for security of the application and data, a security compromise at
one or more locations could prevent OARM from obtaining an Agency-wide view
of acquisition activity.

Certification and Accreditation

OARM should implement more comprehensive procedures to ensure that key
C&A documents are prepared in a timely manner. The C&A package should
include documents such as the most recent system security plan, authorization to
operate, and the risk assessment. Although we did not find significant
deficiencies with the ICMS risk assessment, our review revealed that the ICMS
system owner did not prepare, update, and forward key security documents to
senior OARM officials to reauthorize the system for continued operation. During
field work, we found that ICMS had an outdated security plan and authorization
to operate, which expired in March 2005 and February 2005, respectively. These
key security documents are needed to determine whether ICMS’ current security
controls are sufficient, and if adjustments to security controls are necessary before
reauthorizing ICMS for continued operation.

Upon bringing this issue to OARM’s attention, personnel took action to remediate
this deficiency and provided us an updated security plan and authorization to
operate for ICMS.

Contingency Planning

OARM could improve its contingency planning for ICMS. OARM had not
developed a plan for recovering or continuing operations of ICMS should a
service disruption occur. Although OARM had established POA&Ms to develop
and test a contingency plan, over several years, the program office took no action
to develop a plan.

Contingency plans establish the necessary procedures for continuing operations
for critical systems and applications following a disaster or loss of infrastructure
support. Testing the plan would enable OARM to become familiar with the
recovery steps and help OARM identify where additional emphasis is needed.




                                  4

        System Monitoring for Known Vulnerabilities

        Although we found the physical controls adequate for the two sites we evaluated,
        OARM had not implemented processes to ensure that several ICMS servers were
        monitored for known vulnerabilities. Our results disclosed that OARM had not
        implemented monitoring for 55 percent (5 of 9) of the reviewed servers. As noted
        in Table 1, our tests discovered 50 unique, high-risk vulnerabilities on the
        reviewed servers. In addition, unmonitored servers had, on average, 70 percent
        more vulnerabilities than monitored servers.
                          Table 1. High Risk Vulnerabilities Discovered for 

                              Monitored Versus Unmonitored Servers

                              Number of      Number of Discovered        Average Number of
                               Servers          Vulnerabilities        Vulnerabilities per Server


            Monitored              4                   16                          4.0


           Unmonitored             5                   34                          6.8


               Total               9                   50                            -

         Note: The total number of vulnerabilities does not include vulnerabilities identified as
               Medium or Low Risk or test results described as Informational. For password
               vulnerabilities, we counted one vulnerability per server, although the server may
               have had more than one instance of the same vulnerability.


        OARM shares responsibility with the regional offices for securing ICMS where
        the application operates. Ensuring all locations have implemented processes to
        routinely monitor servers for known security vulnerabilities and verifying the
        configuration of security settings helps reduce security incidents from occurring.
        With a formalized oversight process to ensure these functions are being
        performed, management would have greater assurance that OARM mission-
        critical information systems are adequately protected against known threats and
        computer attacks.

Recommendations
        We recommend that the Office of Administration and Resources Management,
        Information Security Officer:

           1.	 Develop a contingency plan for ICMS and implement a process to ensure
               the plan is tested at least annually.

           2.	 Implement processes to ensure ICMS production servers are periodically
               monitored for known vulnerabilities.



                                               5

            3.	 Develop a POA&M in the Agency’s security weakness tracking system
                (ASSERT database) for all noted deficiencies.

            4.	 Develop and implement a plan to re-evaluate system security oversight
                processes to ensure the above recommendations are uniformly applied to
                all general support systems and major applications within OARM.

Agency Comments and OIG Evaluation

         OARM concurred with many of the report’s recommendations and outlined
         actions that would address several of the findings. However, OARM maintains
         that processes already exist to ensure that ICMS servers are periodically
         monitored for known vulnerabilities, citing on-going activities for servers under
         the direct control of OARM. As indicated above, OARM shares the responsibility
         for securing ICMS with the regional local area network managers operating the
         application. Agency policy indicates that the application owner is responsible for
         implementing processes to secure mission-critical applications. Although OARM
         may share the performance of the security responsibilities with the local area
         network managers, we believe the onus is with OARM, as the application owner,
         to implement an oversight process to ensure that security practices are
         implemented and effective.

         OARM indicated that many of our concerns would be addressed once the office
         finalizes its server consolidation project. OARM indicated that this effort would
         bring ICMS’ current distributed server architecture, spread out in the regional
         offices, to a centralized environment. OARM also provided additional
         information regarding the status of key ICMS security documents and the training
         status for personnel with significant security responsibilities. Where appropriate,
         we modified the report.

         OARM’s complete response is included as Appendix A.




                                          6

                                                                                                  Appendix A

                     Agency Response to Draft Report

MEMORANDUM

SUBJECT:         Response to Draft Audit Report
                 Information Security Series: Security Practices
                 Office of Administration and Resources Management
                 Assignment No. 2005-000661

FROM:            Luis A. Luna, Assistant Administrator /s/

TO:              Rudolph M. Brevard, Director
                 Information Technology Audits

         OARM appreciates the opportunity to respond to this Draft Audit Report. Our response is attached. We
have already addressed several of the issues identified in the report. The security of OARM’s information
technology resources is a critical task that is taken very seriously.

      If you or your staff has any questions, regarding the attached response, please contact Leo Gueriguian,
OARM Information Management Official (IMO), at (202) 564-0388 or gueriguian.leo@epa.gov of my staff.




                                                        7

                       OARM Response to Draft Audit Report (Assignment No. 2005-000661)

                                             December 20, 2005 


         The Office of Administration and Resources Management (OARM) respectfully submits the following
responses to the Office of the Inspector General (OIG) regarding the audit report titled Information Security Series:
Security Practices, Office of Administration and Resource Management, Assignment No. 2005-000661, dated
December 2, 2005. This audit was conducted pursuant to the Federal Information Security Management Act
(FISMA). The Integrated Contracts Management System (ICMS) was one of several EPA major applications
reviewed in 2005 to meet FISMA requirements.

         The following are the findings and recommendations made in the audit report and OARM’s responses:

1. Certification and Accreditation (C&A)

         OARM acknowledges that the ICMS security plan and authorization to operate were expired at the time of
the Office of the Inspector General (OIG) audit. In addition, OARM concurs with the recommendation to update the
security plan and authorization. This recommendation has already been completed.

        The ICMS security plan was updated and approved June 30, 2005. A new Authorization to Operate memo
was signed June 30, 2005. These documents were forwarded to OIG on July 5, 2005.

2. Contingency Planning

          OARM acknowledges that ICMS does not have a final contingency plan. In September 2005, OARM
developed a draft contingency plan and conducted a tabletop exercise. The contingency plan will be finalized as
part of the Office of Acquisition Management’s (OAM) server consolidation project. This effort will bring ICMS’
current distributed server architecture, spread out in the Regional Offices, to a centralized environment. In the event
of a service disruption, an alternate location shall provide the necessary ICMS functionality for the Agency. In
addition, this solution will also place the entire ICMS operational environment under OARM’s control, which will
facilitate monitoring of security settings and testing for known vulnerabilities. We believe this effort, along with
annual testing, will also satisfy the OIG recommendation to develop and test a contingency plan, with which OARM
concurs. This plan will be completed by September 1, 2006.

3. System Monitoring for Known Vulnerabilities

         OAM monitors production servers, under its control (RRB OAM server room, R6 and R9), on a daily basis.
Monitoring is primarily for operational status, space availability, backup logs, console logs, and Oracle instances.
Bindview reports are also run periodically, and Symantech anti-virus software runs on servers and desktops. In
addition, Patchlink has been implemented on the desktops within OARM. OAM is in the process of developing a
Change Management Process to assure that all OAM’s infrastructure components have an appropriate, up to date
security configuration. In conclusion, OARM feels that processes already exist to ensure that ICMS servers are
periodically monitored for known vulnerabilities. Regardless, under the consolidated server project, OAM will have
control of all ICMS servers and will be able to continue the system monitoring. The new system monitoring
processes and change management process will be in place by September 1, 2006.

4. Security Training

         The Office of Policy and Resources Management (OPRM) maintains overall management for the OARM
IT security program. OPRM tracks and monitors the status of OARM staff’s completion of required IT security
training. Specifically, the Information Security Officer for OARM checks the status of the required training for
OARM staff periodically throughout the year.

         The Office of Environmental Information (OEI) maintains the US EPA Security Training database, which
tracks the completion of required IT security training by EPA staff. For FY05, twelve OARM employees were


                                                          8

identified as having significant IT security responsibilities in this database. Three employees were incorrectly
identified as having significant security responsibilities and did not need to take any additional training. All of the
remaining nine OARM employees completed the required IT security training for FY05. Unfortunately, two staff
members were incorrectly identified as not having completed the training in the database. In conclusion, all OARM
employees with significant security responsibilities fulfilled the training requirement for FY05. The Information
Security Officer (ISO) for OARM manages this required training program and will ensure that the tracking of this
training will be accurate in the future.

Remaining recommendations

1. Develop Plans of Actions and Milestones, in the Agency's security weakness tracking system (ASSERT
database), for all noted deficiencies.

         OAM has an open Plan of Actions & Milestone (POA&M) for developing and documenting a log review
process. POA&Ms will be created for revising and testing the Contingency Plan, to align this plan with the
consolidated server environment, and for developing and documenting a Change Management Process for OAM’s
infrastructure.

2. Develop and implement a plan to re-evaluate system security oversight processes to ensure the above
recommendations are uniformly applied to all general support systems and major applications within OARM.

          For the specific findings with which OARM concurs, these issues are believed to be isolated occurrences,
rather than a problem with overall security oversight processes. However, the ISO for OARM will conduct a review
of OARM’s major IT systems to validate that the recommendations of this report have already been completed.
This review will be completed by March 31, 2006.




                                                           9

                                                                                Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Regional Administrator, Region 3
Associate Director, Technology and Information Security Staff, Office of Environmental
    Information
Audit Followup Coordinator, Office of Administration and Resources Management
Audit Followup Coordinator, Region 3
Audit Followup Coordinator, Technology and Information Security Staff
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Inspector General




                                             10

